U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




               PUBLIC
              RELEASE


              INTERNATIONAL TRADE
                   ADMINISTRATION

     US&FCS European Union Mission Should
   Develop a Europe-Wide Commercial Strategy


       Audit Report No. BTD-10588-9-0001 / January 1999




       Office of Audits, Business and Trade Audits Division
U.S. Department of Commerce                                                                                  Final Report BTD-10588
Office of Inspector General                                                                                            January 1999


                                                TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
     THE EUROPEAN UNION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
     US&FCS EUROPEAN UNION MISSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          I.        GENERAL MANAGEMENT AND ORGANIZATION . . . . . . . . . . . . . . . . . . . 6

                    A.        US&FCS EU Is Primarily a Policy Operation
                              That Is Not Integrated With the Core US&FCS Program . . . . . . . . . . . . 7
                    B.        US&FCS EU Lacks a Mission Statement and a Strategic Plan . . . . . . . . . 7
                    C.        Potential Staff Departures in 1998 Come at a
                              Critical Time for US&FCS EU . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                    RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
                        US&FCS’s Response to Draft Report and OIG Analysis . . . . . . . . . . . . . 9

          II.       PROGRAM ACTIVITIES AND PERFORMANCE MEASUREMENT . . . . . . 11

                    A.        US&FCS and NIST Programs Generate Mostly Nonmeasurable
                              Successes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   11
                    B.        NOAA Program Is Successful, but Is Not Integrated With
                              US&FCS EU . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         12
                    C.        US&FCS EU Needs to Develop Services Geared to Small and
                              Medium-Size Firms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         13
                    D.        Program Outreach and Marketing Materials are Needed . . . . . . . . . . . .                               15

                    RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                        US&FCS’s Response to Draft Report and OIG Analysis . . . . . . . . . . . . 16
U.S. Department of Commerce                                                                         Final Report BTD-10588
Office of Inspector General                                                                                   January 1999


        III.    INTERNAL CONTROL ENVIRONMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                A.       Post Administrative Structure Is Inadequate . . . . . . . . . . . . . . . . . . . . .                19
                B.       US&FCS EU Management Does Not Actively Monitor Finances . . . . .                                    20
                C.       Post Is Not Fully Engaged in Overseeing ICASS . . . . . . . . . . . . . . . . . .                    21
                D.       State and ITA Account Balances Differ Significantly . . . . . . . . . . . . . . .                    21
                E.       US&FCS EU Has Unfunded Personnel Liability . . . . . . . . . . . . . . . . . .                       22
                F.       Significant Physical Asset Management Deficiencies
                         Have Been Identified . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   23

                RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
                    US&FCS’s Response to Draft Report and OIG Analysis . . . . . . . . . . . . 24

APPENDIX I - US&FCS’s Complete Response to the Draft Report
APPENDIX II - Acronyms




                                                           1
U.S. Department of Commerce                                                             Final Report BTD-10588
Office of Inspector General                                                                       January 1999


                                       EXECUTIVE SUMMARY

The signing of the two Treaties of Rome in 1957 added two new “communities” to the European
Coal and Steel Community that had been established by the 1951 Treaty of Paris: the European
Atomic Energy Community and the European Economic Community. In 1967, these
communities were merged into a single framework, referred to as the European Community and
now known as the European Union (EU).

The EU is made up of 15 countries, referred to as member states.1 The EU has a population of
approximately 370 million people, roughly 1-1/2 times that of the United States. While presenting
a much broader demographic market than the United States, EU’s geographic area is only one-
third that of the United States. Consequently, population densities are much higher, with most of
the population concentrated in France, Germany, Italy, and the United Kingdom.

The United States has maintained diplomatic relations with the EU and its forerunners since 1953
through the United States Mission to the European Union (USEU). The USEU staff includes
representatives from the Departments of Agriculture, Commerce, Justice, State, and the Treasury,
the Office of the United States Trade Representative, the U.S. Information Agency, the U.S.
Customs Service, and the U.S. Agency for International Development.

The Commerce Department established a presence at USEU in 1991. The Department’s USEU
operations, which are managed by the United States and Foreign Commercial Service (US&FCS),
include programs of US&FCS, the National Institute of Standards and Technology (NIST), and
the National Oceanic and Atmospheric Administration (NOAA). US&FCS European Union
(US&FCS EU) operates in the USEU facility in Brussels, and all staff are located on the USEU
premises.

Pursuant to the authority of the Inspector General Act of 1978, as amended, and the requirements
of the Omnibus Trade and Competitiveness Act of 1988 and the Export Enhancement Act of
1992, the Office of Inspector General conducted a performance audit of US&FCS EU in Brussels.
Field work was conducted in December 1997.

The US&FCS EU is a non-traditional US&FCS post whose activities are primarily directed at
supporting USEU policy initiatives. Although this US&FCS operation has generated many
successes, we concluded that a commercial-and business-oriented strategy is needed to fully
integrate the US&FCS EU operation with the changing business climate in Europe. Strategic
planning is also needed to better guide US&FCS EU efforts and reflect the new approach to the


        1
           Presently, the 15 EU member states are Austria, Belgium, Denmark, Finland, France, Germany, Greece,
Ireland, Italy, Luxembourg, the Netherlands, Portugal, Spain, Sweden, and the United Kingdom

                                                       i
U.S. Department of Commerce                                                      Final Report BTD-10588
Office of Inspector General                                                                January 1999


European Market represented by Showcase Europe, the Department’s strategy to approach
Europe on a regional basis and to help U.S. firms already exporting in one market to move into
others in Europe.

The US&FCS EU Minister Counselor noted his general agreement with our initial findings during
the fieldwork exit conference held on December 5, 1997. We note, however, that at the time we
conducted our fieldwork, he had been at post for only two months. Therefore, weaknesses
identified in this report are not attributable to the Minister Counselor, and we recognize his efforts
to adjust and improve the direction of the office. Our performance audit identified the following
issues that warrant management attention.

I.      General Management and Organizational Issues

The US&FCS EU operation is an atypical US&FCS post with activities that are primarily directed
at supporting USEU policy and regulatory-reporting initiatives. The Minister Counselor noted
during our fieldwork that the direction of the operation needs to be adjusted to better assist the
U.S. business community approaching Europe as a single market, as well as to become a cross-
servicing organization for other US&FCS offices in Europe. In addition, client definition and a
better coordinated management environment are needed to implement a more effective core
program.

Foremost, the US&FCS EU needs to more fully integrate its operations with the core US&FCS
program of providing export marketing assistance to U.S. firms. To do this, US&FCS EU must
develop a strategic commercial plan and identify primary and secondary target markets for its
output. Many issues complicate the implementation of a new commercial strategy, particularly
low staff morale and the potential departure of officers and staff during 1998. We recognize the
difficulties in implementing a commercial export development strategy for a single market
approach within the confines of a policy and regulatory-reporting operation like the USEU.
However, to advance the initiatives of the Showcase Europe Strategy and to develop a
meaningful role in assisting U.S. companies, these adjustments are necessary. (See pages 6-9.)

II.     Program Activities and Performance Measurement

US&FCS EU has been successful in supporting mission efforts in advancing mutual recognition
agreements, which are intended to improve access for U.S. and EU firms to each other’s
respective markets through harmonization of standards. In addition, both the NIST standards
program and the NOAA fisheries program provide value-added service to the U.S. business
community and other US&FCS posts in Europe. However, the development of core US&FCS
products and services needs to be addressed and the integration of NOAA’s and NIST’s programs
into the Showcase Europe Strategy needs improvement. Delivery of quantifiable products and


                                                  ii
U.S. Department of Commerce                                                        Final Report BTD-10588
Office of Inspector General                                                                  January 1999


services will also provide US&FCS EU with measurable output to help it analyze overall
performance.

To increase the operation’s visibility, an outreach program needs to be developed. Outreach has
been passive, limited to answering inquiries from the U.S. business community. In addition, the
post does not have any marketing material to promote the information, counseling services, and
Showcase Europe activities available at or through the post. Furthermore, the post has not
addressed untapped service markets, particularly, providing critical EU information to small and
medium-size enterprises. (See pages 11-16.)

III.    Internal Control Environment

After reviewing the financial and administrative operations at the post, we concluded that
US&FCS EU lacks adequate internal control systems to meet the requirements of the Federal
Managers’ Financial Integrity Act of 1982 (31 U.S.C. 3512(b)). Under the act, management is to
establish internal control systems to ensure that (1) obligations and costs comply with applicable
law, (2) all assets are safeguarded against waste, loss, unauthorized use, and misappropriation;
and (3) revenues and expenditures applicable to agency operations are recorded and accounted
for properly.

The post’s administrative structure is inadequate and appropriate internal controls have not been
established. This is primarily attributable to changes in management and turnover among
personnel, specifically, in the administrative assistant position. As a result, the post is not actively
monitoring its finances, including costs charged for the International Cooperative Administrative
Support Services. We found significant discrepancies in accounting data between State
Department and International Trade Administration financial reports, as well as prior year
unobligated authorizations and unliquidated obligations. In addition, US&FCS EU has
deficiencies in physical asset management. (See pages 19-23.)

Our most important recommendations call for the Assistant Secretary and Director General of
US&FCS to:

1.      Develop a cross-servicing role for US&FCS EU to serve other US&FCS operations
        throughout Europe.

2.      Develop a strategic commercial plan to (a) more effectively coordinate the post with other
        US&FCS offices in Europe, (b) integrate the operation with the Showcase Europe
        Strategy, (c) provide for proper client identification, and (d) focus efforts on increasing
        measurable output to enhance overall performance.



                                                   iii
U.S. Department of Commerce                                                      Final Report BTD-10588
Office of Inspector General                                                                January 1999


3.      Develop new single-market oriented products and services that will assist U.S. companies
        with a Europe-wide strategy.

4.      Establish internal control systems at US&FCS EU so that assets are safeguarded against
        waste, loss, unauthorized use, and misappropriation.

5.      Realign the post’s administrative structure and provide administrative and financial
        management training to officers and staff with related duties.

Our complete recommendations appear at the end of each report section, on pages 9, 16, and 23.

                                               *****

In its reply to the draft audit report, US&FCS generally agreed to the findings and
recommendations, and identified a number of steps it has already taken to implement the
recommendations. These include the following: (1) development of a FY 1999 strategic action
plan to coordinate the post’s marketing efforts with other posts in Europe and with the Showcase
Europe strategy; (2) better integration of standards and certification activities, and direct
management of the NOAA-financed fisheries trade specialist by the senior commercial officer; (3)
promotion of EU-US small business partnerships, alliances, and other cooperation, through its
role as coordinator of the Transatlantic Small Business Initiative with the EU; (4) taking a number
of measures to build a more effective internal control system at post, such as hiring an
administrative assistant, assigning supervisory responsibility for administrative and fiscal functions
to the commercial attache, and implementing a system to track and reconcile fiscal obligations and
expenditures.

We appreciate the commitments made by US&FCS to improve its marketing and management.
We encourage US&FCS senior management to contact NIST headquarters officials to explore
additional means of cooperating on standards and certification activities in the EU. We are
reiterating our recommendations without change in the final report. Summaries of US&FCS’s
response for each set of findings and recommendations are on pages 9, 16, and 24, and we have
attached US&FCS’s complete response to the report.




                                                  iv
U.S. Department of Commerce                                                               Final Report BTD-10588
Office of Inspector General                                                                         January 1999


                                            INTRODUCTION

Pursuant to the authority of the Inspector General Act of 1978, as amended, and the requirements
of the Omnibus Trade and Competitiveness Act of 1988, the Office of Inspector General
conducted a performance audit of U.S. & Foreign Commercial Service (US&FCS) operations at
the United States Mission to the European Union (USEU or Mission) in December, 1997.

Performance audits are objective and systematic examinations of an organization, program,
activity, or function in order to provide information to improve accountability and facilitate
decision-making by parties with responsibility to oversee or initiate corrective action. By
identifying systemic strengths and weaknesses, the OIG will help the Department’s managers in
the International Trade Administration and US&FCS implement more efficient and effective
operations to better serve the Department’s customers.

In the absence of the Ambassador to the USEU, we discussed our observations with the Deputy
Chief of Mission (DCM), and held an exit conference with the US&FCS Minister Counselor and
the Regional Director for Europe on December 5, 1997. During this conference, the Minister
Counselor generally agreed with the findings and recommendations presented in this report.

                                        PURPOSE AND SCOPE

The purpose of this performance audit was to evaluate the effectiveness of the Department’s
operations at the USEU carried out and implemented through US&FCS offices located in
Brussels, Belgium, the capital location for the European Union (EU).2

We tested the Department’s European Union Mission operations for compliance with GAO Title
II and the Federal Managers’ Financial Integrity Act of 1982 (FMFIA) requirements.3 The
report’s findings and recommendations draw upon significant tests of records; physical evidence;
documentary evidence, including accounting records and memorandums; and analytical evidence
based on data obtained. We also gathered testimonial evidence from interviews conducted with
US&FCS personnel, partner organizations (multipliers), and clients. We did not rely solely on
computer-generated data to support our findings. Computer-generated data was used, but was
not tested for reliability. The performance audit covered an extensive review of programmatic,
management, administrative, and financial issues.




        2
         The OIG discloses that three of the four audit team members formerly worked for ITA; however, they
had no material involvement with EU operations.
        3
         GAO Title II is the policy and procedures manual guiding federal agencies accounting responsibilities.

                                                       1
U.S. Department of Commerce                                                             Final Report BTD-10588
Office of Inspector General                                                                       January 1999


We reviewed the US&FCS’s policies, procedures, and practices to determine if it is effectively
and efficiently meeting its mission: to assist U.S. companies, particularly small and medium-size
enterprises (SMEs), with export assistance. We also determined if US&FCS EU goals and
objectives are being achieved, and whether these goals are line with Department objectives. The
audit evaluated the effectiveness and efficiency of operations, and assessed the operation’s
compliance with applicable laws, regulations, and procedures.

In accordance with the General Accounting Office’s (GAO) Standards for Internal Controls in the
Federal Government, we reviewed the agency’s internal control environment relating to
administrative and financial management. We conducted extensive testing to achieve our objective
of determining the effectiveness of administrative and financial management controls.

In our audit, we placed primary emphasis on the following areas:

l       General management and organization.
l       Program activities and performance measurement.
l       Internal control environment and processes.

The audit also considered other departmental, and ITA headquarters and domestic office activities
that are coordinated with US&FCS EU. The audit was conducted in accordance with generally
accepted government auditing standards and was performed under the authority of the Inspector
General Act of 1978, as amended, and Department of Commerce Organization Order 10-13,
dated May 22, 1980, as amended.

                                             BACKGROUND

THE EUROPEAN UNION

The signing of the two Treaties of Rome in 1957 added two new communities to the European
Coal and Steel Community that had been established by the 1951 Treaty of Paris: the European
Atomic Energy Community and the European Economic Community. These “communities” were
merged in 1967 into a single framework, referred to as the European Community and now known
as the European Union (EU).

EU is made up of 15 countries, known as member states.4 The EU has a population of
approximately 370 million, roughly 1-1/2 times that of the United States. While presenting a
much broader demographic market than the United States, the EU’s geographic area is only one-


        4
           Presently, the 15 EU member states are Austria, Belgium, Denmark, Finland, France, Germany, Greece,
Ireland, Italy, Luxembourg, the Netherlands, Portugal, Spain, Sweden, and the United Kingdom

                                                      2
U.S. Department of Commerce                                                      Final Report BTD-10588
Office of Inspector General                                                                January 1999


third that of the United States. Consequently, population densities are much higher, with most of
the population concentrated in France, Germany, Italy, and the United Kingdom.

EU is composed of four internal institutions that function in many ways as the three branches of
the U.S. government. These institutions are the European Commission, the Council of Ministers,
the European Parliament, and the European Court of Justice.

        The European Commission, EU’s executive body, has three main tasks: to serve as sole
        initiator of EU policies, to act as guardian of EU treaties, and to supervise implementation
        of EU law. The Commission’s President is named by the member states and the
        Commission departments, consisting of about 20,000 personnel, are divided into 26
        directorates general.

        The Council of Ministers is composed of government representatives from the 15 EU
        member states. The ministers remain representatives of their individual countries with the
        essential responsibilities of determining EU policy and passing implementation legislation.

        The European Parliament serves as an advisory body to the Commission and the Council.
        The Parliament’s powers have increased significantly over time, and it now exercises veto
        power over legislation in certain areas, such as consumer protection, health, education,
        culture, the environment, and the single market. The 626 Members of Parliament are
        elected to five-year terms and belong to transnational political groups.

        The European Court of Justice rules on disputes involving interpretation and application
        of the EU treaties and legislation. The Court has jurisdiction to settle disputes within the
        EU, to award compensation for damages caused by an EU institution, and to review
        whether a member state has fulfilled an obligation under the governing treaties. The 15
        justices, appointed by the national governments for six-year renewable terms, select their
        own president.




                                                  3
U.S. Department of Commerce                                                 Final Report BTD-10588
Office of Inspector General                                                           January 1999


US&FCS EUROPEAN UNION MISSION

The United States has maintained diplomatic relations with the EU and its forerunners since 1953
through the USEU. The USEU staff includes representatives from the Departments of
Agriculture, Commerce, Justice, State, and the Treasury, the Office of the United States Trade
Representative, the U.S. Information Agency, the U.S. Customs Service, and the U.S. Agency for
International Development.

The Commerce Department established a presence at the USEU in 1991. The Department’s
USEU operations, which are managed by US&FCS, include the programs of US&FCS, the
National Institute of Standards and Technology (NIST), and the National Oceanographic and
Atmospheric Administration (NOAA) (see the organization chart below).




The NIST program at the USEU was established in order to provide policy support to the
development of mutual recognition agreements and to advocate U.S. concerns regarding
standards related to market access. NOAA’s program at the USEU is designed to support the
Department’s position (i.e., the U.S. position) on fisheries and commercial seafood issues.

The Department’s USEU operations are implemented by three commercial officers and six local
hires. Six personnel, including two commercial officers and four local hires, work on the
US&FCS program. One commercial officer and one local hire are dedicated to NIST operations,
and another local hire works exclusively for NOAA. The chart below provides a break down by
agency of the Department’s total USEU operating expenses in FY 1996 and 1997.



                                               4
U.S. Department of Commerce                                                   Final Report BTD-10588
Office of Inspector General                                                             January 1999




                               Operating Expenses
                $1,400,000
                $1,200,000
                $1,000,000
                  $800,000
                  $600,000
                  $400,000
                  $200,000
                          $0
                                US&FCS       NOAA          NIST          TOTAL
                                                 FY 96       FY 97



Along with the other European posts, US&FCS EU is part of the Department’s Showcase Europe
framework. Showcase Europe represents the Department’s commercial strategy for Europe,
initiated through a separate budget increase in 1993, which intends for US&FCS to approach
Europe on a regional basis and to focus on helping U.S. firms already exporting to one country in
Europe to move into other European markets. Various posts in Europe are responsible for
developing sector-specific strategies for the region.

We were unable to compare the resource allocation of US&FCS EU to those of other US&FCS
operations, because US&FCS Belgium resources are included with US&FCS EU resources on the
Overseas Resource Allocation Matrix (ORAM), a US&FCS tool to guide management in
determining overseas resource allocations. US&FCS ranks US&FCS EU and US&FCS Belgium
together, resulting in a ranking of 34th out of 69 countries on the ORAM at the time of our audit.




                                                5
U.S. Department of Commerce                                                              Final Report BTD-10588
Office of Inspector General                                                                        January 1999


                              FINDINGS AND RECOMMENDATIONS

For purposes of this performance audit, we have categorized our findings and recommendations
into three broad areas:

l       General management and organization.
l       Program activities and performance measurement.
l       Internal control environment and processes.

While we have found strengths in some areas, we have also identified weaknesses in all three
areas.

I.      GENERAL MANAGEMENT AND ORGANIZATION

The US&FCS EU operation is a non-traditional post whose activities are primarily directed at
supporting USEU policy initiatives. During our fieldwork, the Minister Counselor noted that the
direction of the operation needs to be adjusted to better assist the U.S. business community by
approaching Europe as a single market, as well as to become a cross-servicing organization for
other US&FCS offices in Europe. We acknowledge that the post has many successes generated
by the policy support work for mutual recognition agreements (MRAs),5 NIST’s European
standards program, and NOAA’s fishery program. However, management needs to focus greater
attention on implementing a more effective core program.

First and foremost, the US&FCS EU needs to more fully integrate its operation with the core
US&FCS program of providing export marketing assistance to U.S. firms. To do this, the post
must develop a strategic commercial plan (SCP) and identify primary and secondary target
markets for its output. A plan is especially needed in view of the potential exodus of the post’s
officers and staff during 1998. We recognize the difficulties in implementing a commercial export
development strategy for a single market approach within the confines of a policy and regulatory-
reporting operation like the USEU. However, to advance the initiatives of the Showcase Europe
(SCE) Strategy and to develop a meaningful role in assisting U.S. companies, these adjustments
are necessary.




        5
           As of May 1997, the United States and the European Union successfully concluded a package of mutual
recognition agreements. The agreements are intended to improve market access, reduce costs, and shorten the time
required to market by allowing for product assessments-testing, inspecting and certifying to be performed in the
United States to EU standards and regulations, and vice-versa.

                                                       6
U.S. Department of Commerce                                                     Final Report BTD-10588
Office of Inspector General                                                               January 1999


A.      US&FCS EU Is Primarily a Policy Operation That
        Is Not Integrated With the Core US&FCS Program

The US&FCS EU has been successful in meeting the regulatory and policy requirements within
the USEU. However, as a business-oriented and export promotion arm of the U.S. government,
it has not integrated itself with US&FCS’s core export assistance program. As a result, the post
has served primarily as a trade policy advisor to other U.S. government agencies represented at
USEU.

US&FCS staff at USEU have worked primarily in four broad areas:

        l       Supporting Ambassador and Deputy Chief of Mission policy initiatives.
        l       Advancing the progress of MRAs.
        l       Highlighting and serving as a resource on international standards issues through
                the NIST program.
        l       Providing for a European-wide coordinating role for fisheries and seafood issues
                and export opportunities through the NOAA program.

US&FCS EU is focused on MRAs and EU standards, and has been highly commended by USEU
representatives and client groups for its work in these areas. However, this focus has not allowed
US&FCS EU to develop either an effective core export assistance program or a cross-servicing
role to other US&FCS posts throughout the EU. As a result, outside of MRAs, standards, and
fishery issues, trade and export issues surfacing in the EU are not being effectively and efficiently
communicated to U.S. businesses or US&FCS posts in Europe.

US&FCS EU needs to move beyond its MRA and trade policy support work and focus more
resources on export assistance matters. Since the EU governing bodies are in Brussels, US&FCS
EU is in a good position to provide and coordinate information to other SCE posts and to U.S.
clients interested in the EU market. US&FCS posts throughout Europe can then leverage
US&FCS EU’s resources and provide more up-to-date and business-critical information to U.S.
exporters.

B.      US&FCS EU Lacks a Mission Statement and a Strategic Plan

The US&FCS EU operation lacks a Strategic Commercial Plan and has not attempted to define
who its clients should be. In addition, without an SCP, US&FCS does not have a road map to
initiate lead roles on international trade and export assistance matters within the USEU.
US&FCS was unable to provide any planning strategies or mission statements relating to its
establishment in 1991. In addition, at the time of our review post management was not able to
provide mission statements or operating guidelines relating specifically to the US&FCS EU. As a


                                                  7
U.S. Department of Commerce                                                   Final Report BTD-10588
Office of Inspector General                                                             January 1999


result, there is no apparent “program” or clear role for the post outside of MRA support work,
international standards matters, and the NOAA program.

US&FCS directs its overseas posts to develop SCPs each year as a guide to direct post efforts
and improve the positioning of U.S. commercial interests. The absence of a SCP for US&FCS
EU has resulted in a noncoordinated, inefficient effort in pursuing EU-wide opportunities. While
the Showcase Europe strategy is designed to increase opportunities in Europe, the absence of a
defined US&FCS EU role does not provide for ideal implementation and results.

The post’s staff indicated that they are unaware of which projects are being worked on by their
colleagues or what the office’s objectives are. During our fieldwork, however, most post staff
indicated that US&FCS EU is working below its potential because it is not taking advantage of
the unique access the post has to the EU governing bodies.

As part of its strategic plan, US&FCS EU needs to develop and identify a client focus. The
program and activities implemented by the post reflect the fact that the US&FCS EU management
lacks an SCP to address its goals, objectives, and strategies. This condition trickles down to the
commercial staff, which provides day-to-day guidance and interaction with partner posts and the
U.S. business community. The absence of client definition fosters uncoordinated efforts within
US&FCS EU and leaves individual staff members primarily providing support to other U.S.
agencies at the USEU (i.e., the Economic Section and the Foreign Agricultural Service).

The services generated by the post are not directed primarily at the targeted US&FCS clients:
small and medium-size enterprises (SMEs). Instead, the limited corporate client base that the post
serves appears to be mostly large, old-to-market (OTM) firms that have experience exporting
within Europe. The Minister Counselor even remarked that 60% of the EU program benefits only
Fortune 500 companies.

US&FCS EU needs to develop a clear mission statement (e.g., become a cross-servicing
organization to partner posts throughout the EU) and complement this mission statement with an
SCP. The plan should identify EU-wide goals and objectives and be coordinated with other
US&FCS offices in Europe. The plan should identify ways that US&FCS EU can maximize its
potential to work with the U.S. business community and the other US&FCS posts in Europe. As
part of its SCP, US&FCS EU should identify target clients and implement its strategy to serve the
needs of its primary and secondary client bases (i.e., the U.S. business community and European
US&FCS posts). In addition, US&FCS EU should initiate products and services that can be
provided to the U.S. business community to assist them in comprehending EU business,
economic, political and financial issues (see Program and Performance Measurement section for
further discussion).



                                                8
U.S. Department of Commerce                                                   Final Report BTD-10588
Office of Inspector General                                                             January 1999


C.      Potential Staff Departures in 1998 Come at a Critical Time for US&FCS EU

Our discussions with US&FCS management and post staff indicate that there is potential for
significant turnover of US&FCS EU staff in 1998. During our fieldwork, we discovered that
many of the staff positions held by PSC hires were short-term positions, with two of the five
scheduled to leave in the spring of 1998. In addition, two other staff members have indicated they
will likely leave in 1998 due to what they describe as a poor operational environment and the lack
of planning that has resulted in a post operating with little direction. To compound the problem,
the Minister Counselor will likely depart the post in 1998 for an ambassadorial nomination, and
the NIST commercial officer rotation expires. This situation will leave the post with just one
commercial officer and, if the staff who said they might leave do so, only two local hires.

Such heavy turnover in a short period will likely have a negative impact on the continuity of
commercial program development and office productivity. US&FCS headquarters should
consider placing a limited appointment officer at US&FCS EU to provide continuity and support
to the operation. This appointment should also advance the development of a commercial
program and support the administrative and financial management of the post (see Post
Administrative Structure Is Inadequate on page 16).

                                   RECOMMENDATIONS

We recommend that the Assistant Secretary and Director General of US&FCS:

1.      Develop a Strategic Commercial Plan to (a) more effectively coordinate the post with
        other US&FCS offices in Europe, (b) integrate the operation with the Showcase Europe
        Strategy, and (c) provide for proper client identification.

2.      Consider placing a limited appointment officer at USEU to provide for continuity and
        support program development, administrative and financial management, and integration
        with the SCE Strategy.

US&FCS’s Response to Draft Report and OIG Analysis

In its reply to the draft report, US&FCS agreed to, and stated that it has already taken action
consistent with, our recommendations. A summary of US&FCS’s position on each
recommendation, as stated in the draft report, is presented with OIG comments on the US&FCS
response.




                                                9
U.S. Department of Commerce                                                    Final Report BTD-10588
Office of Inspector General                                                              January 1999


Recommendation #1:

Develop a Strategic Commercial Plan to (a) more effectively coordinate the post with other
US&FCS offices in Europe, (b) integrate the operation with the Showcase Europe Strategy, and
(c) provide for proper client identification.

US&FCS Response: US&FCS is developing a FY 1999 strategic action plan to coordinate the
post’s marketing efforts with other posts in Europe and with the Showcase Europe strategy.
Discussions are underway between the post, SCE coordinators, and industry teams to build into
their respective FY 1999 annual marketing plans specific US&FCS USEU action initiatives. The
post’s FY 1999 Mission Plan, which was attached to the response as Attachment A (and is
included herein as part of Appendix I), also provides an overview of the post’s planned activities
in support of Showcase Europe and on assisting SMEs.

OIG Comments: We concur with US&FCS’s response to our recommendation. We are
encouraged by the numerous specific initiatives described in the attachment to the response.

Recommendation #2:

Consider placing a limited appointment officer at USEU to provide for continuity and support
program development, administrative and financial management, and integration with the SCE
Strategy.

US&FCS Response: Placing a career (FS-04) officer, instead of a limited appointment, at USEU
is being actively considered by post management. Assigning a career officer will provide the
desired program stability.

OIG Comments: We concur with US&FCS’s response to our recommendation.




                                                10
U.S. Department of Commerce                                                    Final Report BTD-10588
Office of Inspector General                                                              January 1999


II.     PROGRAM ACTIVITIES AND PERFORMANCE MEASUREMENT

US&FCS EU has been successful in supporting USEU efforts to advance mutual recognition
agreements. In addition, both the NIST standards program and the NOAA fishery program
provide value-added service to the U.S. business community and other US&FCS posts in Europe.
However, US&FCS EU does not have an identifiable export assistance program outside of the
MRAs, standards, and NOAA fishery programs. Although US&FCS EU has not developed a
client base, it does offer library-type information services (which are typically provided to large
and old-to-market firms).

The outreach program needs attention. The only form of outreach now taking place is relatively
passive, answering inquiries from the U.S. business community. In addition, US&FCS EU does
not have any marketing material to promote the expert information, counseling services, and SCE
activities available at or through the post. Furthermore, the post has not fully addressed
untapped service markets of providing critical EU information to small and medium-size
enterprises. Although they are the priority clients of US&FCS, based on our audit interviews and
success story data, SMEs are not being adequately serviced or provided with information that
could significantly assist their efforts to export to the EU.

A.      US&FCS and NIST Programs Generate Mostly Nonmeasurable Successes

US&FCS EU has developed a program that is more of a policy-based and regulatory-reporting
operation rather than a trade promotion operation. Clearly, there have been successes with
MRAs and in providing U.S. companies with information and advocacy on EU standards, but the
value added is difficult, if not impossible to properly measure. The Department established a
NIST program at USEU to address issues relating to new and developing EU standards. Our
review concluded that this program represents U.S. standards interests effectively, and that
US&FCS EU provides its greatest value-added service in this area.

However, the NIST program provides little in the way of reports to U.S. businesses, has no client
counseling program, and has no promotional element, thereby complicating output measurement.
Further, US&FCS EU has not coordinated the standards program within the SCE initiative.
When we discussed these issues with the Minister Counselor, he agreed that the role of the
standards program could be enhanced by better integration with SCE. He also noted that the
current work portfolio of the post’s staff is not geared toward helping US&FCS EU to add value
to the SCE initiative. In addition, he commented that plans need to be developed to synergize the
EU operations with the underlying US&FCS mission to provide export marketing assistance to
SMEs. He further indicated that much of the work being done by the post staff could be
considered to be the responsibility of the U.S. Trade Representative and the State Department’s
Economic Section. This is possibly attributable to the lack of a Strategic Commercial Plan as
discussed above in General Management and Organization.

                                                11
U.S. Department of Commerce                                                    Final Report BTD-10588
Office of Inspector General                                                              January 1999


The post added a resource to the standards program in FY 1997 by supplementing the commercial
officer overseeing the program with a local hire. This step allowed the standards program to
generate additional information and distribute standards information to other posts in Europe.
While the post admitted that some additional services (i.e., more company-specific or industry-
specific information) could be generated by the staff dedicated to this program, it would take
more resources to provide these additional services in a quality fashion.

The audit team met with USEU officials and local U.S. businesses to discuss the impact that the
NIST program has on standards and on MRAs. The consensus was that the program is very
successful, but that its impact is virtually impossible to measure. In a few cases, the program’s
activities have had a direct impact on a specific company’s increase in exporting. In fact, most
successes are in the area of MRA development and resolution of trade conflict matters that may
hamper the ability of U.S. firms to export certain products to the EU.

US&FCS management and post management need to refocus the EU operations and provide a
strategy that produces measurable success in providing U.S. companies with export marketing
assistance. The operations should come more in line with the principal US&FCS core activity:
assisting U.S. firms, primarily SMEs, with export marketing assistance. In addition, NIST and
US&FCS need to pursue a strategy to integrate the standards program into the SCE initiative. In
addition, the standards commercial officer needs to develop products and services that fill, at a
minimum, industry-specific needs.

B.      NOAA Program Is Successful, but Is Not Integrated with US&FCS EU

The NOAA fisheries program at USEU is managed by the US&FCS EU. All costs relating to this
program are reimbursed to US&FCS by NOAA’s National Marine Fisheries Service (NMFS) in
Washington.

The one FSN who runs the NMFS program at EU was praised by USEU counterparts (State
Department and Foreign Agricultural Service) for his efforts and knowledge of fishery and
seafood issues in Europe. In addition, the program is known by other US&FCS offices in Europe
to be one that regularly communicates information related to European fishery and seafood
industry matters that provide opportunities for U.S. firms. However, we observed that this FSN
operates independently from the US&FCS EU mission, spending only two days per week at the
EU office in Brussels and the other three days at the U.S. Embassy in Paris. The Minister
Counselor acknowledged that he obtains no feedback or information relating to this individual’s
output, performance, or work schedule for the days he works out of Paris. The Minister
Counselor also acknowledged that more management attention is needed in this area.

We agree the Minister Counselor needs to pursue more effective management over the program;
however, input from US&FCS management in Paris is needed on the individual’s performance.

                                                12
U.S. Department of Commerce                                                               Final Report BTD-10588
Office of Inspector General                                                                         January 1999


C.         US&FCS EU Needs to Develop Services Geared
           to Small and Medium-sized Firms

The European Union is largely dominated by large companies that have a proven exporting
relationship within Europe. Consequently, clients serviced by the US&FCS EU tend to be large,
old-to-market firms. US&FCS EU has not addressed how to reach out to SMEs and work on
behalf of their interests, nor has it attempted to create products or services that target SMEs. The
following chart provides data on counseling sessions, trade facilitation sessions, advocacy, and
other outputs.
                                 US&FCS EU 1997 Program Activity
    Service Item           Categorya         1st Qtr   2nd Qtr    3rd Qtr       4th Qtr     Total       %
    Counseling             NTE                    10         2              0         4           16        5%
                           NTM                    28         3          21           37           89     28%
                           OTM                    78        56          29           46          209     67%
                           Total Clients         116        61          53           87          317    100%
    Trade Facilitation     NTE                    10         0              1         2           13        6%
    Sessions

                           NTM                    28         0          17            7           52     24%
                           OTM                    79        36              8         2          125     58%
                           LCF                     0        18              6         0           24     11%
                           Total Sessions        117        54          32           11          214    100%
    Advocacy               Projects               10         0              9         7           26

    Information Products   IMI                     0         0              2         5             7
                           Gov’t Tenders         450        420        294          219         1383

    Trade Events           Events                  0          0             4         0             4


    Performance            Success Stories         1          0             0         2             3
    Measure

a
 NTE is New-to-Export; NTM is New-to-Market; OTM is Old-to-Market; LCF is Local Country Firms; IMI is
International Market Insights.



                                                       13
U.S. Department of Commerce                                                              Final Report BTD-10588
Office of Inspector General                                                                        January 1999


More than 60 percent of counseling and trade facilitation sessions involved OTM firms, while only
30 percent involved NTM and 10 percent involved NTE. Post advocacy in most cases was
identified as “standards advocacy.”

US&FCS EU makes few export services available to SMEs and generates few, if any, products or
services to assist U.S. companies in penetrating the European market. Firms wanting information
on approaching the overall European market currently have to contact each US&FCS country
office to obtain information. The SCE strategy is attempting to change that by helping U.S. firms
approach Europe as a single market. However, the US&FCS EU office is not in step with the
SCE strategy and has not provided key services that could serve as an additional resource to U.S.
business, as well as US&FCS posts implementing the strategy.

Outside of the NOAA and NIST programs, there is little activity directed to assisting U.S.
companies with a Europe-wide approach or providing U.S. firms with assistance in approaching
the market. From our interviews and fieldwork, we believe there are services that the post could
provide to benefit its clients. The following are some examples of potential services that could be
beneficial.

        <        Information Products and Market Research

        If US&FCS is encouraging firms to approach Europe as a single market through the SCE
        Strategy, more services need to be provided to assist firms in doing this. The post could
        develop, with other US&FCS offices in Europe, customized information products to
        benefit U.S. companies that are in need of single-market approach information. The
        US&FCS EU office is strategically placed to develop this type of information.

        Another service, suggested by the Treasury Department official at USEU, would be a
        program to advise U.S. companies on the potential impact of the single European currency
        to be implemented in 1999. Our interviews revealed that there is a lack of awareness of
        the potential impact of this issue on U.S. companies.

        <        Contact Services

        The post already provides the Gold Key service to U.S. firms.6 This service currently
        provides information to U.S. firms primarily on standards issues within EU. US&FCS
        should attempt to institutionalize this program and augment it with Europe-wide contacts
        that would assist U.S. firms in approaching the single market.


        6
          The Gold Key Service is a fee service provided by US&FCS to assist U.S. companies in finding
representatives, distributors, and business partners overseas.

                                                      14
U.S. Department of Commerce                                                   Final Report BTD-10588
Office of Inspector General                                                             January 1999


        <       EU Sector Management Plans

        The SCE Strategy identifies eight priority industry sectors in Europe as the core of best
        prospects for U.S. companies. To assist the SCE initiative, US&FCS EU could develop
        sector management plans, much the way the European Union-American Chamber of
        Commerce does, to track legislation, trade promotion events, standards issues, and the
        like for a more coordinated approach and strategy. Other US&FCS offices indicated that
        this would be highly beneficial.

From our fieldwork, we concluded that US&FCS EU is not serving the needs of SMEs and has
no strategy to identify how to serve them. The Export Enhancement Act of 1988 states that
US&FCS’s basic purpose is to promote the export of U.S. goods and services, particularly by
SMEs. The post should redirect its attention toward such firms and develop a strategy to increase
its servicing of them.

D.      Program Outreach and Marketing Materials are Needed

US&FCS EU lacks an outreach program and marketing materials to effectively promote its
services. The business community and partner organizations we interviewed were aware of the
US&FCS EU office, but could not identify any promotional program or outreach strategy. In
addition, our fieldwork did not identify any specific products or services provided by US&FCS
EU.

Response from the business community indicated the post is a key player in terms of access to the
EU governing bodies (see page 3) and that its knowledge of the EU market and how member-
country exporting processes work could be invaluable. However, outside of the NIST and
NOAA programs, the post is not viewed as a vital information and counseling body.

Input from the business community indicates a desire for more outreach, seminars, and
training/information sessions. These types of activities could be rolled into a new SCP. We
believe that US&FCS EU could add significant value by implementing such a program to
incorporate more effective and proactive outreach techniques.




                                                15
U.S. Department of Commerce                                                     Final Report BTD-10588
Office of Inspector General                                                               January 1999


                                    RECOMMENDATIONS

We recommend that the Assistant Secretary and Director General of US&FCS:

1.      Review the current programs and output at the post for export marketing assistance and
        identify measurable activities for the post to undertake.

2.      Begin to integrate the outstanding NIST standards program with the Showcase Europe
        initiative and develop quantifiable products and services for U.S. exporters.

3.      Implement more effective management over the NOAA fisheries program and develop a
        matrix-management plan with US&FCS Paris.

4.      Redirect a larger portion of the post’s attention and resources toward small and medium-
        size enterprises.

5.      Develop new single-market oriented products and services that will assist U.S. companies
        with a Europe-wide strategy.

6.      Develop an outreach program and market services targeted at the U.S. business
        community and at other US&FCS posts in Europe.

US&FCS’s Response to Draft Report and OIG Analysis

In its reply to the draft report, US&FCS agreed to, or stated that it has already taken action
consistent with, our recommendations.

Recommendation #1:

Review the current programs and output at the post for export marketing assistance and identify
measurable activities for the post to undertake.

US&FCS Response: The new SCO is evaluating the post’s marketing assistance program with
the objective of integrating it more fully into the SCE and emphasizing assistance for SMEs.
US&FCS USEU expects to be able to significantly increase marketing support provided to target
business clients.

OIG Comments: We concur with US&FCS’s response to our recommendation.




                                                 16
U.S. Department of Commerce                                                    Final Report BTD-10588
Office of Inspector General                                                              January 1999


Recommendation #2:

Begin to integrate the outstanding NIST standards program with the Showcase Europe initiative
and develop quantifiable products and services for U.S. exporters.

US&FCS Response: US&FCS USEU has taken steps to further integrate its standards and
certification operations into SCE activities. The SCO organized a conference this past June on
standards and certification in the EU, with SMEs and FSNs from around the EU in attendance.
USEU annually updates a NIST publication on standards setting in the EU, and the publication is
available on the SCE website.

OIG Comments: We concur with US&FCS’s response to our recommendation, and we
encourage US&FCS senior management to directly contact NIST headquarters officials to
explore additional means of coordinating standards and certification activities.

Recommendation #3:

Implement more effective management over the NOAA fisheries program and develop a matrix-
management plan with US&FCS Paris.

US&FCS Response: The NOAA-financed staff position will be managed under direct SCO
supervision, with an SCO-approved work plan, performance reports, and time and attendance
reports, all of which will be coordinated with the Paris post. The FSN fisheries trade specialist
has produced a number of success stories and expects more; he also plans to produce marketing
reports for the first time.

OIG Comments: We concur with US&FCS’s response to our recommendation.

Recommendation #4:

Redirect a larger portion of the post’s attention and resources toward small and medium-size
enterprises.

US&FCS Response: The post plans to concentrate additional resources to identify SME firms
and improve the delivery of appropriate services to them. The post believes it counsels many
more SMEs on EU-related matters than were indicated in the draft report, specifically via fax,
letter, e-mail, and telephone. In addition, the post has been heavily involved in promotion of EU-
US small business partnerships, alliances, and other cooperation, through its role as coordinator
of the Transatlantic Small Business Initiative (TASBI) with the EU. The TASBI is one of the
highest departmental priorities. Attachment B to the response (which is included herein as part of


                                                17
U.S. Department of Commerce                                                   Final Report BTD-10588
Office of Inspector General                                                             January 1999


Appendix I) lists numerous TASBI-related activities during 1997 and 1998, and planned in the
future.

OIG Comments: We concur with US&FCS’s response to our recommendation. We encourage
the post to maintain appropriate documentation of all contacts with SMEs in the future.

Recommendation #5:

Develop new single-market oriented products and services that will assist U.S. companies with a
Europe-wide strategy.

US&FCS Response: The post prepared marketing reports on the information technology and
telecom and the electric power sectors, in concert with other SCE posts. The post also prepared
marketing reports on several multi-sector, cross-cutting issues. US&FCS USEU also intends to
assist US firms in accessing EU public procurement projects. USEU has attempted to develop a
Single Market Gold Key service, although a pilot was never launched, and SCE coordinators have
recently expressed interest in it.

OIG Comments: We concur with US&FCS’s response to our recommendation.

Recommendation #6:

Develop an outreach program and market services targeted at the U.S. business community and
at other US&FCS posts in Europe.

US&FCS Response: US&FCS USEU staff have made presentations at numerous events, such as
briefings for the American Society of Association Executives and Council of American States in
Europe. The post is now working with SCE sector coordinators to designate specific outreach
and market services activities in each of the eight SCE sector plans for FY 1999. A professionally
designed marketing brochure will be prepared during the second quarter, and the NOAA staffer is
preparing a separate brochure on NOAA’s EU-wide program.

OIG Comments: We concur with US&FCS’s response to our recommendation.




                                               18
U.S. Department of Commerce                                                     Final Report BTD-10588
Office of Inspector General                                                               January 1999


III.    INTERNAL CONTROL ENVIRONMENT

After reviewing the financial and administrative operations at the post, we concluded that the
US&FCS EU lacks adequate internal control systems to meet the requirements of the Federal
Managers’ Financial Integrity Act of 1982 (31 U.S.C. 3512(b)). Under the act, management is to
establish internal control systems to ensure that (1) obligations and costs comply with applicable
law, (2) all assets are safeguarded against waste, loss, unauthorized use, and misappropriation;
and (3) revenues and expenditures applicable to agency operations are recorded and accounted
for properly.

An adequate administrative structure and sufficient segregation of duties are absent, a situation
due mainly to changes in US&FCS EU management and turnover among personnel, specifically in
the administrative assistant position. The post is not actively monitoring its finances, including
costs charged for ICAAS. We found significant discrepancies in accounting data between State
Department and ITA financial reports, as well as prior year unobligated authorizations and
unliquidated obligations. Our audit also disclosed an unfunded severance liability of $165,000
accrued by the post. Finally, US&FCS EU has deficiencies in physical asset management.

A.      Post Administrative Structure Is Inadequate

The organizational structure over the financial and administrative functions at post is inadequate
due to changes in management and personnel in the administrative assistant position. During the
past year, a rotation in top management at post resulted in a lapse of two months before the new
Minister Counselor arrived. The rotation of the officers, as well as the lapse, has affected the
internal control environment. Also, finances are not being monitored to the extent necessary to
safeguard assets against waste, loss, unauthorized use, and misappropriation.

In addition to changes in management, post has experienced an extended vacancy and rotating
personnel in the administrative assistant position since February 1997. At that time, the full-time
administrative assistant, who had handled the finance and administrative functions of the operation
for numerous years, went on disability. Since then, four different individuals have handled the
post’s finance and administrative functions. From February to May 1997, a PSC was responsible
for the functions. In May, an intern took over the duties. In June, an FSN was asked to handle
finance/administrative duties in addition to her primary responsibilities. In September, the post
hired a PSC to assume responsibility of the functions, but the PSC’s contract was to expire in
December 1997. Our audit also disclosed that none of the American officers at the post have had
any training in the financial/administrative arena, nor have any of the individuals who handled the
finance and administrative functions during 1997.

The shift in responsibility for finance/administrative functions among four different individuals and
the lack of training has negatively affected the internal control environment. The staff is unaware

                                                 19
U.S. Department of Commerce                                                               Final Report BTD-10588
Office of Inspector General                                                                         January 1999


of the lines of responsibility over administrative functions. In addition, some administrative staff
have been required to perform additional program duties (outside of their job description),
distracting their attention from their primary responsibilities. This condition has created
uncertainty among the staff as to who is responsible for administrative functions.

The uncertainty and the changes in functions have created potential for mishap. Our fieldwork
disclosed two instances that could have led to serious problems. In one instance, delivery for a
procurement was made by the vendor before authorization from the Joint Administrative
Services.7 When this happened, the purchase order had to be expedited because the post did not
have approved funds to pay for the goods. In another instance, we learned that the Deputy Chief
of Mission directed US&FCS to authorize monies for a welcoming party for the new Minister
Counselor. This occurred at a time when there was no senior commercial officer at the post.
Aside from the DCM directing the agency how to spend its money, which is inappropriate, the
money ($2,000 in cash) was delivered from the Embassy to the DCM’s residence by taxi. The
potential for waste, loss, unauthorized use, or misappropriation of resources was high in these
two instances.

B.      US&FCS EU Management Does Not Actively Monitor Finances

During our fieldwork, we observed that post management does not actively monitor its finances.
For instance, the post does not keep records of expenditures. Instead, it relies solely on State
Department’s Financial Management Center (FMC) to track its expenditures and to provide
accurate accounting. With no records of expenditure accounts, the post cannot be sure of how
much it is spending on a short-term (i.e., monthly) basis.

In addition, both NIST and NOAA headquarters are unaware of the breakdown of expenses for
their operations at the EU post, which should be reconciled on a monthly basis. In the absence of
its own records, US&FCS EU cannot reconcile its accounts with FMC records which should be
reconciled on a monthly basis. NOAA and NIST staff should also maintain records to track their
expenses and report back to Washington on a timely basis on how funds are being used. The
Federal Managers’ Financial Integrity Act and GAO’s Standards for Internal Controls in the
Federal Government require US&FCS management to implement effective controls over financial
management. Maintaining records to track expenditures is an important aspect of proper
management controls over finances.




        7
         Joint Administrative Services is the State Department’s administrative operation in Belgium. It provides
administrative service to USEU, the U.S. Embassy in Belgium, and the U.S. representatives to the North Atlantic
Treaty Organization.

                                                       20
U.S. Department of Commerce                                                               Final Report BTD-10588
Office of Inspector General                                                                         January 1999


C.      Post Is Not Fully Engaged in Overseeing ICASS

Through interviews with Embassy personnel and the ICASS Council, we learned that US&FCS
post management is not fully engaged in overseeing ICASS. In addition, the post does not track
its ICASS costs. ICASS is the new administrative support system used by foreign affair agencies
to manage and fund administrative services abroad. In FY 1997, ICASS was implemented and
operated under a virtual year where agency representatives periodically met with the service
provider to work through processes.8 During this time, the provider and the representatives held
discussions concerning the various costs of services, how costs were to be calculated, service
standards, and quality of the services provided. Issues were resolved through the ICASS Council
meetings.

We learned that post management does not always participate in Council meetings and, thus, is
not fully aware of the services provided and how the charges are calculated. In addition, our
analysis of the operating expenses of each Commerce agency at USEU revealed that although
NIST spent more in FY 1997 ICASS charges than on its O&A, it is unaware of the charges.
NOAA is also unaware of its ICASS charges. Thus, NOAA and NIST are unable to manage
ICASS expenses. Furthermore, management has neglected to include staff in the ICASS working
groups even though some staff have expressed an interest in participating.

US&FCS EU was charged $206,877 for ICASS services in FY 1997, and is projected to spend
$222,276 in FY 1998. Management should participate in ICASS meetings to fully understand
what US&FCS EU is being charged for and whether the charges are valid. Management should
also select staff members to participate in the ICASS working groups.

D.      State and ITA Account Balances Differ Significantly

Our review of official records disclosed large differences in account balances reported by State
and ITA. During our review of account balances, we identified a total difference of $719,884
between State and ITA accounting data for expenditures. The following table shows a
breakdown of the account balance differences.




        8
         All overseas government agencies utilizing the State Department for administrative services participated
in an ICASS virtual year in FY 1997. This project implemented new ICASS software to track agency
administrative costs, however, agencies continued to pay for services under the old FAAS system during FY 1997.
In FY 1998, ICASS was fully implemented.

                                                       21
U.S. Department of Commerce                                                               Final Report BTD-10588
Office of Inspector General                                                                         January 1999

                          Reconciliation of State and ITA Accounting Data (FY1997)
                        Expenditure           State Balance      ITA Balance       Difference

                  O&A                           $528,624         $1,104,686        $576,062
                  Reimbursables
                   (NOAA and NIST)               182,651             227,127          44,476
                  Trust Funds                            0            99,346          99,346
                           Total                                                   $719,884

For O&A, ITA’s account balance includes American officer salaries and benefits, while the State
Department’s accounting system does not provide this information. However, backing out
$196,174 in American officer salaries and benefits for FY 1997 still leaves a difference of
$379,888 for the O&A account balance. We were unable to determine the reason for this
remaining difference. We were also unable to determine the reason for the difference in the
reimbursable account balances, but we believe the discrepancy may be the result of timing
differences. Similarly, we could not determine the reason for the difference in the Trust Fund
account balances. However, since US&FCS EU had no trust fund expenditures in FY 1997 (i.e.,
no trade events or information products to generate revenues), the discrepancy may be the result
of ITA accounting errors. With such large discrepancies in account balances between State and
ITA records, ITA may be relying on inaccurate data to manage its FCS overseas posts. ITA and
US&FCS need to reconcile their account balances and determine the reason for the significant
discrepancies.

E.      US&FCS EU Has Unfunded Personnel Liability

The Federal Managers’ Financial Integrity Act, GAO Tittle II, and the Chief Financial Officers
Act of 1990 (CFO Act) require that US&FCS Headquarters account for its FSN severance
liability. The severance liability consists of payments due to eligible FSNs in the event of
voluntary or involuntary separation. The personnel office of the U.S. Embassy in Belgium
determined that as of the end of FY 1997, the total unfunded severance liability for US&FCS EU
was $164,960.9 The US&FCS officials at post were unaware of this unfunded liability at the time
of our audit, and need to report it to US&FCS Washington on a yearly basis.




        9
          The personnel office is part of the State Department’s Joint Administrative Services in Belgium, which
provides administrative services to USEU, the U.S. Embassy in Belgium, and the U.S. representatives to NATO.

                                                       22
U.S. Department of Commerce                                                     Final Report BTD-10588
Office of Inspector General                                                               January 1999


F.      Significant Physical Asset Management Deficiencies Have Been Identified

As discussed above, the changes in the administrative structure have affected the internal control
environment. In particular, there are no controls over inventory to ensure that assets are
safeguarded against waste, loss, unauthorized use, and misappropriation. Our fieldwork
determined that US&FCS EU does not monitor its inventory log nor does it request the State
Department to update the inventory when new purchases are made. The State Department
updates the inventory each February for all U.S. agencies at post. Any procurements that are
delivered directly to post, bypassing the State warehouse, do not get tagged and logged until
February. We identified over $6,000 in inventory that had not been tagged nor recorded on the
State Departments inventory log. In addition, the log identified $5,248 in inventory that post
could not locate, and a 1994 US&FCS management review also identified a missing laptop
computer.

                                    RECOMMENDATIONS

We recommend that the Assistant Secretary and Director General of US&FCS:

1.      Require US&FCS EU management to establish an effective internal control system,
        including an appropriate administrative structure and a clear designation of individual
        responsibilities, so that assets are safeguarded against waste, loss, unauthorized use, and
        misappropriation.

2.      Establish an administrative structure and train and assign a permanent, full-time
        administrative assistant to this position. Commercial officers overseeing these
        responsibilities also need administrative and financial training.

3.      Provide finance/administrative training to US&FCS EU staff.

4.      Require US&FCS EU to maintain records to track expenditures and to reconcile these
        records with State’s FMC records on a monthly basis.

5.      Report and track FSN severance liability on a yearly basis.

6.      Establish and maintain a physical asset inventory log and properly identify all US&FCS
        property.




                                                 23
U.S. Department of Commerce                                                     Final Report BTD-10588
Office of Inspector General                                                               January 1999


US&FCS’s Response to Draft Report and OIG Analysis

In its reply to the draft report, US&FCS agreed to, or stated that it has already taken action
consistent with, our recommendations.

Recommendation #1:

Require US&FCS EU management to establish an effective internal control system, including an
appropriate administrative structure and a clear designation of individual responsibilities, so
that assets are safeguarded against waste, loss, unauthorized use, and misappropriation.

US&FCS Response: The SCO, who arrived at post on October 1, 1998, agrees with the audit
report findings. He points out that a number of issues have been already addressed. This issue is
a top priority of the Office of International Operations and the post.

OIG Comments: We concur with US&FCS’s response to our recommendation.

Recommendation #2:

Establish an administrative structure and train and assign a permanent, full-time administrative
assistant to this position. Commercial officers overseeing these responsibilities also need
administrative and financial training.

US&FCS Response: The post hired an administrative assistant in May 1998 on a personal
services contract. Training has been provided, and conversion of the position to a full-time FSN-
8 administrative assistant position is being processed. The commercial attache has now been
assigned more direct supervisory responsibility over administrative and fiscal functions.

OIG Comments: We concur with US&FCS’s response to our recommendation.

Recommendation #3:

Provide finance/administrative training to US&FCS EU staff.

US&FCS Response: The commercial assistant, who has been recommended for promotion as a
new standards assistant, and the NOAA fisheries commercial assistant will be sent to training and
charged with maintaining the budgets assigned to their portfolios. Any additional FSNs hired will
be provided with an administrative orientation program.

OIG Comments: We concur with US&FCS’s response to our recommendation.


                                                 24
U.S. Department of Commerce                                                  Final Report BTD-10588
Office of Inspector General                                                            January 1999


Recommendation #4:

Require US&FCS EU to maintain records to track expenditures and to reconcile these records
with State’s FMC records on a monthly basis.

US&FCS Response: The post has implemented a system to track and reconcile fiscal obligations
and expenditures. FMC has been asked to provide monthly balances to crosscheck them with
post records. NIST and NOAA expenditures will also be tracked in the same manner. The post
now regularly attends ICASS meetings, and the new SCO has confirmed the validity of the annual
financial obligations.

OIG Comments: We concur with US&FCS’s response to our recommendation.

Recommendation #5:

Report and track FSN severance liability on a yearly basis.

US&FCS Response: Since the audit, the severance liability has been substantially reduced
through staff departures having staff use compensatory time. The SCO has requested an updated
review of the unfunded liability, which will be annually reported. The Office of International
Operations notes that USEU did report severance liabilities to OIO in the FY 1997 fourth quarter
and the FY 1998 second quarter reports.

OIG Comments: We concur with US&FCS’s response to our recommendation. We appreciate
the new information with respect to the reports by the post of the unfunded liability.

Recommendation #6:

Establish and maintain a physical asset inventory log and properly identify all US&FCS
property.

US&FCS Response: The post conducted a thorough physical asset inventory subsequent to the
OIG audit. The JAS/GSO has been responsible for conducting and maintaining the inventory, a
function paid by US&FCS under ICASS. The SCO has requested a review of the inventory
system, which will be conducted by the appropriate OIO officer in the second quarter of FY 1999.

OIG Comments: We concur with US&FCS’s response to our recommendation.




                                               25
U.S. Department of Commerce                                                  Final Report BTD-10588
Office of Inspector General                                                            January 1999


                                          APPENDIX II

                                            Acronyms

CFO Act                 Chief Financial Officers Act of 1990
DCM                     Deputy Chief of Mission
EU                      European Union
FAAS                    Foreign Affairs Administrative Services
FMC                     Financial Management Center
FSN                     foreign service national
GAO                     General Accounting Office
ICASS                   International Cooperative Administrative Support Services
ITA                     International Trade Administration
LCF                     local country firms
MRA                     mutual recognition agreements
NIST                    National Institute of Standards and Technology
NMFS                    National Marine Fisheries Service
NOAA                    National Oceanic and Atmospheric Administration
NTE                     new-to-export
NTM                     new-to-market
O&A                     operating & administrative
OIG                     Office of Inspector General
ORAM                    Overseas Resource Allocation Matrix
OTM                     old-to-market
PSC                     personal services contract
SCE                     Showcase Europe
SCP                     strategic commercial plan
SME                     small and medium-size enterprises
US&FCS                  U.S. and Foreign Commercial Service
USEU                    United States Mission to the European Union
